                                        NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS

                                  CLOSEOUT MEMORANDUM

TO: AIGI         File Number: I90030015                                            Date: 02 March 2002

Subject: Closeout Memo                                                                     Page 1 of 1


     There was no closeout written at the time this case was closed. The following information was
     extracted from the file in conformance with standard closeout documents.

     Our office was informed that the subject1was alleged to have committed embezzlement, theft, or
     diversion of grant funds. The subject pleaded guilty to embezzlement on June 7, 1990 and was
     sentenced to 8 months imprisonment and 2 years probation on July 30, 1990.

     Accordingly this case is closed.




      Susan Jeanette Kassinger, University Corporation for Atmospheric Research.



                  Prepared by:                        Cleared by:

                 Agent:          Attorney:          Supervisor:       AIGI
  Name:      I
                 EMBEZZLEMENT OF NSF GRANT FUNDS
 FROM THE UNIVERSITY CORPORATION FOR ATMOSPHERIC RESEARCH (UCAR)
            (Investigative Report-Case No. 90030015)

The University Corporation for Atmospheric Research (UCAR.) of
Boulder, Colorado, is a science research center funded almost
exclusively by NSF.
UCAR's                                             advised NSF in
February 1990 that a UCAR internal auditor had determined that a
UCAR administrative assistant had embezzled $68,681 while using a
false social security number. The funds embezzled were NSF grant
funds and therefore were federal funds. It is a federal crime to
embezzled federal money and NSF grant funds remains money of the
United States within the meaning of federal embezzlement
statutes, 18 USC 641 and 666, even after being deposited in a
bank account of the grantee.
UCAR presented the evidence it had to federal and local law
enforcement officials in Denver.    The prosecution of this case
was coordinated by an Assistant United States Attorney, with
assistance from the Office of Inspector General, Department of
Health and Human Services, which has jurisdiction over social
security fraud, and from our Office of Inspector General.
On June 7, 1990, in the U. S. District Court for the District of
Colorado, Criminal Case No. 90-CR-166, Susan Jeanette Kassinger
plead guilty to 18 USC 641, Embezzlement of funds from the
University Corporation for Atmospheric Research (UCAR), Boulder,
Colorado, an entity funded directly by the National Science
Foundation. On July 30, 1990, Ms. Kassinger was sentenced to a
term of 8 months imprisonment at the U. S. Bureau of Prisons and
upon release from imprisonment Ms. Kassinger will be on
supervised release for two years. Restitution was not ordered by
the court.
UCAR submitted a claim to its insurance carrier in connection
with the loss from the embezzlement.    On July 3, 1990, UCAR
received a check for $65,865 in settlement of the claim. UCAR
was not paid $2,500, which was the policy deductible.      In
addition, UCAR has implemented new internal controls as
safeguards to prevent future losses.
All matters have been resolved and this file is accordingly
closed.
                                  September 5, 1990
                       NATIONAL SCIENCE FOUNDATION
                          WASHINGTON, D.C. 20550




    Office of
Inspector General



 MEMORANDUM

         DATE: August 14, 1990
   REPLY TO
    ATTN OF:                     Special Agent
     SUBJECT: UCAR Embezzlement Case, Final Report
         CASE: 90030015
            TO: AIG for Internal Audit and Investigations
                Counsel to the IG
                Inspector General

 On February 26, 1990,
                , University Corporation for Atmospheric Research
 (UCAR), called             , DGC, and notified her of an alleged
 embezzlement of NSF funds from the Unidata program. Ms.
 notified              , DGC, of the allegation and Mr.
 followed up the telephone call with a letter, dated March 6,
 1990.   In addition,              , ATM, learned of the alleged
 embezzlement and sent a letter to Dr.
 UCAR, requesting to be informed of the situation and possible
 actions. OIG was notified of the allegation on March 15, 1990,
 when                delivered copies of the letters to Cliff
 Bennett, AIG, External Audit.
 On March 29, 1990, Mr.                   was contacted by the
 Investigations Unit and stated that an UCAR internal auditor had
 determined that the total embezzled by Susan J. Kassinger was
 $68,681.07. Mr.             stated that when the embezzlement was
 discovered, he called Ms.         , NSF, and the FBI.     The FBI
 told him to refer the case to the local police to investigate
 the embezzlement.     Mr.             stated that Officer
            Boulder Police, (303) 441-      had been investigating
 the case for the Boulder Police.
Mr.            then added that the investigation discovered that
Ms. Kassinger used a false social security number to embezzle the
money and that Special Agent                 , HHS-OIG,         -
    , was also investigating the embezzlement.        was working
with AUSA Andrew Vogt,                  . Mr.              stated
that Ms. Kassinger had been arrested and the AUSA would seek
restitution.    If restitution could not be made, which Mr.
          doubted, UCAR will file an insurance claim for employee
theft and should receive complete reimbursement except for
$2,500 deductible. The Investigation Unit called Agent        but
Agent      was not available.
The Investigations Unit then called AUSA Andrew Vogt,
    , whom stated that Ms. Kassinger admitted that she embezzled
UCAR money when she was arrested, and in his opinion, she will
not contest the charges against her. AUSA Vogt stated that she
could be charged her with 18 USC 408g, "False use of Social
Security Number," but that he wanted to charge her with 18 USC
641, "Embezzlement." AUSA Vogt stated that he was not sure that
he could charge her with the embezzlement because he did not know
if the UCAR funds retained their federal character after being
deposited into UCAR's account. AUSA Vogt asked this office for
assistance in clarifying the status of these funds. We agreed to
research the matter for him.
The Investigations Unit found a case, Hayle v. US, CA2 (NY) 1987,
815 F.2d 879, where the court stated, "Federal grant money
remains money of the United States within meaning of federal
embezzlement statute (641) even after being deposited in bank
account of the grantee, and even if commingled with nonfederal
funds, so long as the government exercises supervision and
control over funds and their ultimate use." Control of funds can
be proven by having audit authority.      The NSF Grant General
     .
Conditions states that NSF has audit authority over NSF grant
funds
This information was immediately relayed to AUSA Vogt. AUSA Vogt
stated that he would now charge Ms. Kassinger with 18 USC 641 and
expected a plea agreement to be worked out shortly. AUSA Vogt
stated that he would contact the Investigations Unit when the
plea agreement was made or if he needed additional information.
On March 29, 1990, AUSA Vogt called to say that Ms. Kassingerls
counsel has agreed that Ms. Kassinger will plead guilty to one
count of embezzlement (18 USC 641). The plea should be accepted
by the court within the next few weeks and sentencing should
occur 6 weeks later. AUSA Vogt stated that he would send copies
of the plea agreement and sentencing order. AUSA Vogt added Ms.
Kassinger has a previous conviction for embezzlement in Colorado.
On June 7, 1990, in the U. S. District Court for the District of
                 /   -
Colorado, Crimina- 'case No. 90-CR-166, Susan Jeanette Kassinger
plead guilty to 18 USC 641, Embezzlement of funds from the
University Corporation for Atmospheric Research (UCAR), Boulder,
Colorado, an entity funded directly by the National Science
Foundation. On July 30, 1990, Ms. Kassinger was sentenced to a
term of 8 months imprisonment at the U. S. Bureau of Prisons and
upon release from imprisonment Ms. Kassinger will be on
supervised release for 2 years. Restitution was not ordered by
the court.
UCAR submitted a claim to its insurance carrier in connection
with the loss from the embezzlement.      On July 3, 1990, UCAR
received a check for $65,865.99 in settlement of the claim. UCAR
was not paid $2,500, which was the policy deductible.         In
addition, UCAR has implemented new internal controls as
safeguards to prevent future losses.
                                IN IWE UNITED STATES DISTRICT COURT
                                   FOR M E DISTRICT OF CdlORADO

Criminal Action No. WGR-186

UNITE0 STATES OF AMERICA,
                                   Plaintlft,

v,




       Pursuant to     f   p h Of guitty to the slngk croutlt information, the coun finds the defendant guitp,
of embezzlement of public money in vldation of 18 U.S.C. 5 641. The part*-           agree that the appliabls

guideline range is 8-44 madhs. As pat of the plea agreement, the government recommends a

sentence at ,the Cow end of that rafjge. The court has determined that the appropriate semenee is a

rnomhs with 2 y W s of supervised retease. The defendant dues not and will not have the ability to pay

a fine, restitution or costs of confinernent w supenrision. Upon the foregoing, it b
       ORDERED that the defendant b commi#ed to the custody of the United States Bureau of

Qri%ans to be imprisoned for a term d 8 months, (urd It iS

       F U m E R ORDERED that upon release from imprisoMnentthe defendant shall be on supervised

release for a term of 2 years, dwing which she shall not commit another federal, state or toea1 crime,

shJl not possess any fimanm or 71-al            dwgs and shall be subject to claw monitoring of her finaneid



       FURTHER ORDERED that the defendant shall pay the $Sl?.W special sssessrnent required by
18 U.S.C.   5 3013 and it is

                                                                        I. the ukdemigned. Clerk ofttte
                                                                      United States District Court for
                                                                      Di~trictof & l d o . do certify that   .
                                                                                                                  -.
                                                                                                                 .$
                                                                                                                  3
                                                                      the formin%is a true copy of an             ;J

                                                                      original dDeumenl remaining ar file
                                                                      and record i y my dfica
                                             University Corporation for Atmospheric Research
                                             P.O. Box 3000. Boulder, CO 80307-3000U.S;A.
                                             Tel: (303)497-1000



                                                                                      J u l y 17, 1990


                Member Institutions
                    University of Alaska      Mr.
                   University of Arizona
    Califwnia lnstitute of Techrmlogy
      University of California at Davis
      University of California at lrvine
             Uniwrsity of California at
                            Los Angeles
                  University of Chicago
             Colorado State Univsrsilv        N a t i o n a l Science Foundation
                  University of Colorado
                      Cornsli University      1800 G Street,N.W.,
                   University of Denver
                       Orexel University      Washington, D.C. 20550,
                flwida State University
      Georgia Institute of Technology
                      Haward University
                    University of Hawaii      Dear M r .                 :
      University of Illinois at Urbana-
                             Champaign
                  Iowa State University
             Johns Hopkins University
                                                         T h i s i s t o advise you o f t h e c u r r e n t s t a t u s o f t h e Susan
                 Univarrity of Maryland
            hlassachUsaRsInstitute of
                                              Kassinger t h e f t . As I t o l d you i n my l e t t e r o f A p r i l 24,
                             Technology
                       McGill University
                                              n e g o t i a t i o n s were going on between t h e U.S. Attorney and Ms.
                    Univehity of Miami
                 University of Michigan
                                              K a 3 i nger's a t t o r n e y concerning charges. The n e g o t i a t i o n s were
              ' University of Minnawta
                  University of Missouri
                                              based, a t l e a s t i n p a r t , on t h e premises t h a t Ms. Kassinger could
           Naval Postgraduate School
    Vniwrsity of Nebraska at Lincoln
                                              and would make f u l l and immediate r e s t i t u t i o n . I n r e t u r n , t h e
                   Univarsitv of Nevada
     New Mexico Institute o l Mining
                                              case would be moved t o t h e Colorado c o u r t . However, Ms. Kassinger
                        and Technology
     State University of New York at
                                              was unable t o make f u l l and immediate r e s t i t u t i o n so t h e m a t t e r
                                  Albany
                   New York University
                                              stayed i n Federal c o u r t . Ms. Kassinger pleaded g u i l t y t o
      Nonh Carolina State Universilv
                  Ohio State University
                                              embezzlement and sentencing w i l l t a k e p l a c e on J u l y 24, 1990. We
                University of Oklahoma
               Oregon State University
                                              w i l l advise you o f t h e sentencing. Enclosed f o r your inforniation
        Pennsyivania State University
                    Princeton University
                                              i s a copy o f t h e Rearraignment document, dated June 7, 1990.
                      Purdue University
            University of Rhode Island
                         Rice Univerdty
                  Salnt Louis University
                                                        As I noted i n my A p r i l 24 l e t t e r we submitted a c l a i m o f
 SniOpa Institution of Oceanwraphv
     m Uw Univarsity of California at         $68,370.94 t o o u r insurance c a r r i e r i n connection w i t h t h e l o s s .
                              San Dmgo
                     Stanford Unlvatsity
                                              On J u l y 3, 1990, we received a check f o r $65,865.99 i n settlement
                 Texas A&M University
                    University of Texas
                                              o f t h e claim. The $65,865.99 i s our c l a i m o f $68,370.94 l e s s
                  University of Toronto
                                              $4.95 which was n o t p a i d out, b u t which was included i n our c l a i m
                                              l e s s t h e $2,500 p o l i c y d e d u c t i b l e ($68,370.94 -$4.95 - $2,500 =
                  Utah State University
                      University of Utah
                   University of Virginia
         Washington State University
             Univenitv of Washinaton          $65,865.99).
  ~niversw    of wiscdnsin a adi is on
Jniversity of Wisconsin at Milwaukee
          Woods Hola Oceanographic
                               Institution
                                                    As a r e s u l t o f t h i s i n c i d e n t we have made some changes t o
                University of Wyoming
                         Yale Univarritv      strengthen our i n t e r n a l c o n t r o l s and procedures. The changes are:

                                                         1. We w i l l sample 50% o f a l l checks f o r t h e next 12 months
                                              f o r proper endorsement. And any anomal i e s w i l l be reviewed and
                                              a p p r o p r i a t e a c t i o n s taken, i f necessary and warranted. A f t e r 12
                                              months we w i l l access t h e r e s u l t s o f t h e review and see i f we
                                              should continue o r i f some g r e a t e r o r l e s s e r percentage should be
                                              r e v iewed  .
                                                          2. V i s i t o r paychecks w i l l e i t h e r be d i s t r i b u t e d through
                                              e l e c t r o n i c t r a n s f e r o r given d i r e c t l y t o t h e v i s i t o r ; no v i s i t o r ' s
                                              check w i l l be g i v e n t o a t h i r d p a r t y f o r d i s t r i b u t i o n t o t h e
                                              visitor.
                                                               UCAR is an Equal OpportunitylAffirmative Action Employer
                                      NSF
      J u l y 17, 1990
      Page 2

               3. A l l new employees w i l l be required t o receive t h e i r pay
      through d i r e c t deposit t o t h e i r bank account. No p a y r o l l checks
      w i l l be made out f o r new employees.

              4. Outstanding t r a v e l advances w i l l be followed-up on a
      more t i m e l y basis.
            5. T r a i n i n g sessions w i l l be scheduled t o advise program
      managers t h a t a c r i t i c a l p a r t o f t h e i r program i s t h e Budget
      Status Report (BSR), and i t needs t o be reviewed by them.
                 6. Pay checks and deposit s l i p s w i l l be d i s t r i b u t e d by t h e
      I n t e r n a l A u d i t o r on a random basis. The d i s t r i b u t i o n w i l l be made
      t o t h e named i n d i v i d u a l , n o t the group secretary o r manager.

                  7. I f an employee i n a p o s i t i o n w i t h access t o funds has a
      p a t t e r n o f personal f i n a n c i a l problems, t h e I n t e r n a l A u d i t o r w i l l
      do a review o f program funds and f i n a n c i a l a c t i v i t i e s .

                 We b e l i e v e t h e above measures w i l l strengthen our i n t e r n a l
      c o n t r o l s and safeguards s u f f i c i e n t l y t o he1p prevent f u t u r e
      occurrences o f t h e problems encountered w i t h Susan Kassinger.
      We have advised our insurance c a r r i e r o f the above changes and so
      f a r we have n o t heard from the c a r r i e r . However, i t may be t h a t
      t h e c a r r i e r w i l l have suggestions and/or recommendations
      concerning i n t e r n a l c o n t r o l s and safeguards. I f t h i s i s the case
      we w i l l advise you and t h e actions taken w i t h respect thereto.

                As soon as Ms. Kassinger has been sentenced, we w i l l advise
      t h e Foundation. We assume t h a t a p a r t o f any sentencing w i l l be a
      requirement f o r r e s t i t u t i o n and we w i l l be r e q u i r e d t o t u r n any
      monies received over t o t h e insurance company u n t i l t h e i r payment
      has been s a t i s f i e d . I n t h e meantime, i f you have any questions,
      f e e l f r e e t o c a l l me a t
..-




      cc:
                  IN THE UNITED STATES DISTRICT COURT
                     FOR THE DISTRICT OF COLORADO

Criminal Case No. 90-CR-166
UNITED STATES OF AMERICA,
     Plaintiff,
v.
SUSAN JEANETTE KASSINGER,
     Defendant.


              PLEA AGREEMENT AND STATEMENT OF FACTS
                      RELEVANT TO SENTENCING


     The United States, by and through Andrew A. Vogt, Assistant
United States Attorney for the District of Colorado, and the
defendant, SUSAN JEANETTE KASSINGER, personally and by counsel
David B. Harrison, submit the following Plea Agreement and
Statement of Facts Relevant to Sentencing pursuant to paragraph 4
General Order 87-5.
                           I * PLEA AGREEMENT
     The defendant agrees to plead guilty to the Information and,
in exchange, the government agrees to recommend to the Court that
the defendant be sentenced to the minimum sentence as provided in
the applicable guideline range of the federal sentencing
guidelines.
                   11.   ,MAXIMUM STATUTORY PENALTIES
     The maximum statutory penalty for the offense is: not more
than 10 years, not more than $250,000 or both; $50 special
assessment fee; plus $68,681.07 restitution. (There may also be
a term of supervised release imposed of not more than 3 years,
pursuant to 18 U.S.C. § 3583. A prison sentence may be imposed
for violation of the supervised release.) Costs of supervision
and/or incarceration may also be imposed.
          111.     STIPULATIOH OF FACTUAL BASIS AND FACTS
                          RELEVANT TO SENTENCING
     The parties agree that there is no dispute as to the
material elements which establish a factual basis of the offense
of conviction.
     Pertinent facts are set out below in order to provide a
factual basis of the plea and to provide facts which the parties
believe are relevant, pursuant to S 1B1.3, for computing the
appropriate guideline range. To the extent the parties disagree
about the facts relevant to sentencing, the statement of. facts
identifies which facts are known to be in dispute at the time of
the plea. (S 6B1.4(b))
     The statement of facts herein does not preclude either party
from presenting and arguing, for sentencing purposes, additional
facts or factors not included herein which are relevant to the
guideline computation (1B1.3) or to sentencing in general
(lB1.4). Nor is the court or probation precluded from the
consideration of such facts. In "determining the factual basis
for the sentence, the court will consider the stipulation [of the
parties], together with the results of the presentence
investigation, and any other relevant information." (6B1.4
Corn. )
     The parties agree that the government's evidence would show
that the date on which conduct relevant to the offense (1B1.3)
began is June 1986.
     The parties agree that the government's evidence would be:
     SUSAN JEANETTE KASSINGER was employed throughout the period
June 1986 through December 1989 as an administrative assistant at
the University Corporation for Atmospheric Research (UCAR),
Boulder, Colorado, an entity funded directly by the National
Science Foundation through annual Congressional appropriations.
During the period June 1986 through December 1989, KASSINGER
created a false and fictitious employee identity in the name of
Susan Atkinson, using a false social security account number, and
repeatedly prepared and submitted to the UCAR Accounting and
Finance Section false payroll time sheets and travel advance and
reimbursement documentation in the name of this fictitious
employee. Additionally, KASSINGER prepared and submitted false
payroll time sheets and travel advance and reimbursement
documentation in the names of other real persons, including that
of Lloyd Staley and others. KASSINGER usually forged the
initials of her supervisor before submitting the false payroll
documents for payment. KASSINGER received numerous UCAR checks
made payable to these "employees" in net amounts totalling
approximately $57,621.00, resulting in a total loss to UCAR of
$68,681.07, in gross payments, including tax withholding and
other required payments, made on the basis of the false
documentation submitted by KASSINGER. KASSINGER wrote on the
back of each check a signature endorsement purporting to be that
of "Lloyd Staley," "Susan Atkinson," or other payee as
applicable, the notation "pay to the order of Susan Kassinger,"
and her own signature endorsement and deposited the checks into
her own account, No.              , at the University of Colorado
Federal Credit Union.
      On March 15, 1990, KASSINGER was interviewed by Special
Agent             , Office of Inspector General, Department of
Health and Human Services, and admitted her actions in devising
and implementing the above-described scheme.

                        IV.   SENTENCING COMPUTATION
     The parties stipulate that sentencing in this case will be
determined by application of the sentencing guidelines, issued
pursuant to Title 28, United States Code, Section 994(1), and
Title 18, United States Code, Section 3553.
     Any estimation by the parties herein regarding the estimated
appropriate guideline application does not preclude either party
from asking the court to depart from the otherwise appropriate
guideline range at sentencing, if that party believes that there
exists an aggravating or mitigating circumstance of a kind, or to
a degree, not adequately taken into consideration by the
Sentencing Commission in formulating the guidelines. (S 5K2.0)
     The parties understand that the court may impose any
sentence, up to the statutory maximum, regardless of any
guideline range computed, and that the Court is not bound by any
position of the parties. (S 6B1.4(d)) The Court is free,
pursuant to SS 6A1.3 and 6B1.4, to reach its own findings of
facts and sentencing factors considering the parties'
stipulations, the presentence investigation, and any other
relevant information. (S 6B1.4 Comm.; S 1B1.4)
     To the extent the parties disagree about the sentencing
factors, the computations below identify the factors which are in
dispute. (S 6B1.4(b)) New facts which arise or are discovered
may cause a party to change its position with regard to guideline
computation or sentencing position.
        A.   The base guideline is S 2Bl.1, with a base offense level
of 4.
        B.   The following specific offense characteristics apply:
             a.   The loss was more than $40,000 but less than
                  $70,000; add 7 levels pursuant to 2Bl.l(b)(l)(H).
             b.   The offense involved more than minimal planning;
                  increase by 2 levels pursuant to 2Bl.l(b)(4).
     C. There are no 1) victim-related, 2) role-in offense,
and/or 3) obstruction adjustments.
       D.   The adjusted offense level would therefore be 13.
     E. The defendant should receive the adjustment for
acceptance of responsibility. The resulting offense level would
therefore be 11.
     F. The parties understand that the defendant's criminal
history computation is tentative. The criminal history category
is determined by the Court. Additional facts regarding the
criminal history are as follows: The defendant was given a
deferred judgment in Colorado District Court, Boulder County, on
September 11, 1981, for theft of over $200. The defendant
performed 50 hours of community service and paid $11,846.70 in
restitution and the charges were dismissed on September 17, 1983.
Based on that information, if no other information were
discovered, the defendant's criminal history category would be I.      .
     G.     The career offender/career livelihood adjustments do not
apply
     H. The guideline range resulting from the estimated offense
level(s) of (E) above, and the (tentative) criminal history
category of (F) above, is 8-14 months. However, in order to be
a3 accurate as possible, with the criminal history category
undetermined at this time, the estimated offense level(s) of (E)
above could conceivably result in a range from 8 months (bottom
of Category I), to 33 months (top of Category VI).
     The sentence would be limited, in any case, by the statutory
maximum.
     Pursuant to guideline 5 5E1.2, assuming the estimated
offense level of (E) above, the fine range for this offense is
$2,000 to $20,000, plus applicable interest and penalties.


Date



Date                         /d&>-               -
                                                 g
                                      DAVID B. HARRISON
                                      ATTORNEY FOR DEFENDANT

Date    ?</Po
                                      ASSISTANT U.S. ATTORNEY
                                    IN THE UNITED STATES DISTRICT COURT
                                       F O R THE DISTRICT OF COLORADO


    Judge          RICH?UXI P. MA!TSCH       .
    Deputy Clerk         Jacob G i l m r e
    =rim. NO.             Q d -8R-
                                                           Counsel for Corn.
                                                                               B d 1 3 .&~iac
                                                           counsel for ~ c f t -
    Interpreter:                                           Pretrial/Pmb. Off.            @&&
                             in Session.
             Defendant's rights to trial to jury expIained.
    []       Defendant and counsel execute Consent to Proceed Before the Magistrate.
    []       Waiver of fndictmenc executed; Felony lnformatfon filed.
    d        ~nform a c i o n ' ~ . ~( ) read to defendant. 6 f e n d a n c waived teading.
    []       Plea of NOT GUILTY to counu                                       l



    []       ORDERED: Judge                               assigned to the case ( ) by draw OR ( ) am relate
              to
    []        30 day minimum to trial                           ;70 day   maximum to trial
             90 d a y cuscody llmtt                                  a




-   [
    []
             ORDERED: D I s c o v e ~Conference see
             Defendant's appearance walved.
                                                                           before Mag.

               RDERED: Case sec for t
              lea of GODLrU ca m
             Defendant adPised c R a t

              M                                  0




    ['J       Tile Couct ftndr that defeodanc ( )IS C J I NOT
                                                          ~ likely to flee or be a danger m himself or
              and it is ORDERED: ('WNDCONTINUED ( ) BOND REVOKED.
    [   1     ORDERBDt Defendant remanded to custody of U.S. Marshal. ( ) On Writ.




            3.'a
                               ,
                Court la Re-.
                     IN THE UNITED STATES DISTRICT COURT
                        FOR THE DISTRICT OF COLORADO
Criminal Caee No. 90 CR 166
UNITED STATES OF AMERICA,
     Plaintiff,


Susan J. Kassinger
     Defendant.

        STATEMENT BY DEFENDANT IN ADVANCE OF PLEA OF GUILTY
           (In accordance with the Sentencing Guidelines)

      I hereby acknowledge and certify that I have been advised of
and that I understand the following facts and rights, that all
representations contained herein are true and correct, and that
my attorney has assisted me as I have reviewed and completed this
form:
     1. The nature of the charges against me has been explained
to me by my attorney and the Court. I have had an opportunity to
discuss with my attorney and with the Court the nature of the
charges and the elements which the government is required to
prove.
     2. I know that when the Court sentences me, the Court will
consider many factors, including certain Guidelines established
by the United States Sentencing Commission pursuant to 18 U.S.C.
S 3553, as those Guidelines pertain to the crime I admit I
committed, my degree of involvement in that crime, and my
personal history and background. I understand that the Court has
discretion with respect to the application of the Sentencing
Guidelines, and that I could be sentenced to serve the maximum
term and to pay the maximum fine, as set out in Paragraph 3
below.
     3 . I know that the following penalties may be imposed upon
me under the law, as a result of ,my guilty plea(s):
                                 COUNT   T


          a. Imprisonment for a term of not less than
years, and not more than I n  years;
          b. A term of supervised release of not more than                 3
years, pursuant to 18 U.S,C. S 3583;
          c. A fine of not more than $250,000 , pursuant to the
statute I admit that I violated and/or the alternative fine
schedule set out at 18 U.S.C. S 3571;
             d. Restitution t o my victim(s) of not more than           b . 6 ~ 07
                                                                                1
I        pursuant to 18 U.S.C. SS 3663 and 3664;
           e. A Victim's       Fund Assessment of                  , pursuant
to 18 U.S.C. S 3013;
          f. An additional fine equal to the costs incurred by
the government in incarcerating and supervising me, pursuant to
18 U.S.C. S 3553 and Sentencing Guideline S5E4.2(i);

          g. Deportation from the United States if I am not a
U.S. citizen and my crime is deemed to be one of moral turpitude,
                                                          -
pursuant to 8 U.S.C. S 1251(a)(4).
                                 COUNT
     \
                  Imprisonment for a term of not less than
                                   years;
                         of supervised release of not more than
years,                    U.S.C. S 3583;
                                                         , pursuant to the
statute I                                       the alternative fine
schedule
          d. Restitution t o                       of not more than $           ,
pursuant to 18 U.S.C. SS 3663
             e.   A Victim's   Fund                           , pursuant       to
18 U.S.C.    S 3013;

          f. An additional fine equal to



                                                              \
the government in incarcerating and
18 U.S.C. S 3553 and Sentencing

          g. Deportation from the United States if I
U.S. citizen and my crime is deemed to be one of moral                     de,
pursuant to 8 U.S.C. S 1251(a)(4).
                                 COUNT

                                                of not less than
years, and                            years ;
        .  b. A term of supervised release of not more than
years, pu;suant to 18 U.S.C. S 3583;
                 \. -.
          c.   fine of not more than $
                   -\

                                                 , pursuant to the
statute I admit thb-t I violated'and/or the alternative fine

          d.
                          B
schedule set out at 'k U.S.C. S 3571;
                                               of not more than $         ,
pursuant to 18
          e. A Victim's Fund                            , pursuant   to
18 U.S.C. S 3013;
          f. An additional fine equal to                 incurred by
the government in incarcerating and                      pursuant to
18 U.S.C. S 3553 and Sentencing
          g. Deportation from the United States if
U.S. citizen and my crime is deemed to be one of
pursuant to 8 U.S.C. S 1251(a)(4).
     4. I know that if I am convicted of more than one count,
the sentences may be.either concurrent or consecutive.
     5. I know that the information set out in Attachment A,
concerning the collection of fines, applies to me, and I
ackqowledge that I have read Attachment A.
@&      Defendant ' s initials
      6.    YY     I know that if the blank .at the beginning of
this sentence is checked, the information set out in Attachment B
concerning the payment and collection of restitution, applies to
me, ,and I acknowledge that 1 have read Attachment B.

&          ~ e endaht
                f     s initials
     7. I know that I can be represented by an attorney at e v e r y
stage of this proceeding, and 1 know that if I cannot offord an
attorney, one will be appointed to represent me at the
government's expense.
     8.  I know that I have a right to plead "not guilty," and I
know that if I do plead "not guilty," I can persist in that plea.
     9.  I know that I have a right to trial by jury, and I know
that if I choose t o stand trial:
          a. I have a right to the assistance of an attorney a=
every stage of the proceeding;
            b.     I have a right to see and observe the witnesses   uko
testify against me;
          c. My attorney can cross-examine all witnesses who
testify against me;
           d. I can call such witnesses as I desire, and I can
obtain subpoenas to require the attendance and testimony of those
witnesses;
          e. If I cannot afford to pay the expenses that
witnesses incur, the government will pay those expenses,
including mileage and travel expenses, and including reasonable
fees charged by expert witnesses;
          f. I cannot be forced to incriminate myself and I do
not have to testify at any trial;
          g. I can testify at my trial if I choose to, and I do
not have to decide whether t o testify until after I have heard
the government's evidence against me;

          h. If I do not want to testify, the jury will be told
that no inference adverse to me may be drawn from my failure to
testify;
          i. The government must prove each and eve* element of
the offense(s) with which I am charged, beyond a reasonable
doubt;
          j. In order for me to be convicted, the jury must
reach a unanimous verdict of guilty; a n d .
          k. If I were to be convicted, I could appeal, and if I
could not afford to appeal, the government would pay the cost of
the appeal, including the cost of the services of an appointed
attorney;
    10. I know that if I plead guilty, there will not be a trial
of any kind.
    11. I know that if I plead guilty, there will be no
appellate review of the question of whether or not I am guilty of
the offense(e) to which I have pled guilty.
    12. I know that once this Court sentences me, both the
government and I may be able to seek appellate review of the
sentence imposed, pursuant to 18 U.S.C. S 3742. I understand
that any such appellate review will extend only to the question
of whether a proper sentence was imposed. I understand that the
Court of Appeals will not take up the question of whether I am
guilty of the offense(s) to which I have pled guilty. I
understand that I will have to serve my sentence that is imposed
by this Court, subject to modification of the sentence by order
of the Court of Appeals and/or the United States Supreme Court.
    13. No agreements have been reached, and no representations
have been made to me as to what the sentence in this case will
be, except that which is explicitly detailed in the document
entitled PLEA AGREEMENT AND STATEMENT OF FACTS RELEVANT TO
SENTENCING, which will be filed with the Court during this
proceeding. I further understand that any agreements and
stipulations in the document entitled PLEA AGREEMENT AND
STIPULATION OF FACTS are binding on the Court onlv if the parties
ask the Court in that document to be so bound, and onlv if the
Court agrees to be so bound when it accepts my guilty plea(s).
    14. The only plea agreement which has been entered into with
the government is that which is set out in the document entitled
PLEA AGREEMENT AND STATEMENT OF FACTS RELEVANT TO SENTENCING,
which will be filed by the government and me in this case and
which I incorporate herein by reference.
    15. I understand that the Court can make no decision as to
what my sentence will be until the Pre-sentence Report has been
received and reviewed by the Court.
    16. I.know that when I enter my plea(s) of guilty, the Court
may ask me questions under oath about the offense(s) to which I
have pled guilty. The questions, if asked of me on the record
and in the presence of my attorney, must be answered by me, and
if I give false answers, I can be prosecuted for perjury.
    17. I know that I have the right to ask the Court any
questions that I have concerning my rights, these proceedings,
and my plea(s) to the charge(s).
    18.   I am    3      years of age. My education consists of       -
                                    C ~ L ~ R J - b- o
                          .
    ,31r~bp   1   U U I U E - ~ S /"
                                   ~F
                            I w c a n n o t read and understand the
English language.      (Circle either "can" or "cannot.")
    19. Other than the promises of the government set out in the
document entitled PLEA AGREEMENT AND STATEMENT OF FACTS RELEVANT
TO SENTENCING, no promises and no threats of any sort have been
made to me by anyone to induce me or to persuade me to enter my
pleas(s) in this case.
    20.  No one has promised me that I will receive probation or
any other form of leniency because of my plea(s) of guilty.
    21. I have had a sufficient opportunity to discuss this case
and my intended plea(s) of guilty with my attorney. I do not
wish to consult with my attorney and further before I enter my
plea(s) of guilty.
    22. I amsatisfied with my attorney. I believe that I have
been represented effectively and competently in this case.
    23. My decision to enter the plea(s) of guilty is made after
full and careful thought, with the advice of my attorney, and
with a full understanding of my rights, the facts and
circumstances of the case, and the potential consequences of my
plea(s) of guilty. I was not under the influence of any drugs,
medication or intoxicants when I made the decision to enter my
guilty plea(s). I am not now under the influence of any drugs,
medication or intoxicants.
    24.    I have no mental reservations concerning the entry of my
plea(s).
    25. Insofar as it shows conduct on my part, the summary of
facts set out in the document entitle PLEA AGREEMENT AND
STATEMENT OF FACTS RELEVANT TO SENTENCING is true and Correct,
except as I have indicated in that document.
    26. I know that I am free to change or delete anything
contained in this statement and that I am free to list my
objections and my disagreements with anything contained in the
document entitled PLEA AGREEMENT AND STATEMENT OF FACTS RELEVANT
TO SENTENCING.  I accept both documents as they are curs-Lly
drafted.
    27.    I wish to plead guilty to the following charges:
                        18 USC 641   Embezzlement


(Specify which counts and relevant statute citations.)
     DATED this    31       day of                  May   ,   19%.




     I certify that I have discussed this statement and the
document entitled PLEA AGREEMENT AND STATEMENT OF FACTS RELEVANT
TO SENTENCING with the defendant; I certify that I have fully
explained the defendant's rights to him and have assisted him in
completing this form. I believe that the defendant understands
his rights and this statement. I believe that the defendant is
knowingly and voluntarily entering his plea(s) with full
knowledge of his legal rights, and with full knowledge of the
possible consequences of his plea(s) of guilty. I believe that
there is a factual basis for the plea(s) entered.
    DATED this   31   day of                        ,   19%.




                                  I   --    I

                               ~ t t o r n e yfor the Defendant
                                          Attachment         A

     COLLECTION OF FINE BY GOVERNMENT/PENALTY 'FOR FAILURE TO PAY
                       -
                ( S e e 18 U.S.C. §S 3565 and 3 6 1 1 - 3 6 1 5 )

        1.      I u n d e r s t a n d t h a t w i t h r e s p e c t t o any f i n e o v e r $2,500
o r p e n a l t i e s f o r which payment is d e f e r r e d , i n whole o r i n
p a r t , i n t e r e s t s h a l l a c c r u e on t h e unpaid b a l a n c e a t t h e r a t e
of    1.5% p e r month o r 1 2 % p e r annum..
          2.    I u n d e r s t a n d t h a t w i t h r e s p e c t t o any f i n e o v e r $2,500
o r p e n a l t i e s f o r which payment ( i n c l u d i n g any i n t e r e s t
payments) is p a s t due i n whole o r i n p a r t , i n t e r e s t s h a l l
a c c r u e on t h e p a s t due b a l a n c e o f s u c h f i n e o r i n t e r e s t a t t h e
r a t e o f 1.5% p e r month o r 1 2 % p e r annum,.
          3.     I u n d e r s t a n d t h a t w i t h r e s p e c t t o any f i n e o r
p e n a l t i e s f o r which payment ( i n c l u d i n g i n t e r e s t payments) i s
p a s t d u e f o r more t h a n 90 d a y s , I s h a l l be r e q u i r e d t o pay a
one-time ' p e n a l t y e q u a l t o 25% of t h e amount p a s t due i n
a d d i t i o n t o any amount o t h e r w i s e p a y a b l e ,
        4.    I u n d e r s t a n d t h a t i f I d o n o t make f u l l . payment on a
f i n e o r p e n a l t y , o r p o r t i o n t h e r e o f , when due, t h e e n t i r e
unpaid b a l a n c e may, a t t h e d i s c r e t i o n o f t h e A t t o r n e y G e n e r a l ,
be made p a y a b l e immediately.
          5.      I u n d e r s t a n d t h a t i n a d d i t i o n t o any o t h e r c o l l e c t i o n
p r o c e d u r e s , any f i n e o r p e n a l t y may g i v e rise t o t h e c r e a t i o n
o f a l i e n i n f a v o r o f t h e U n i t e d S t a t e s upon my p r o p e r t y and
r i g h t s o f p r o p e r t y f o r payment o f s u c h f i n e (and i n t e r e s t and
p e n a l t y ) , even i f s u c h p r o p e r t y and r i g h t s o f p r o p e r t y a r e i n
the p o s s e s s i o n , c o n t r o l , o r dominion o f s u b s e q u e n t p u r c h a s e r s ,
h o l d e r s of s e c u r i t y i n t e r e s t s , m e c h a n i c ' s l i e n o r s , o r judgment
creditors.
          6.      I u n d e r s t a n d t h a t i f I w i l l f u l l y f a i l t o pay my f i n e ,
t h e C o u r t may r e s e n t e n c e me t o any s e n t e n c e which might
o r i g i n a l l y have b e e n imposed,
         7.     I know t h a t i f I w i l l f u l l y f a i l t o pay my f i n e , I may
      guilty of a s e p a r a t e o f f e n s e ( i n a d d i t i o n t o t h e o f f e n s e ( s )
      which I am p l e a d i n g g u i l t y ) . I know t h a t i f I am c o n v i c t e d
      t h i s new o f f e n s e , which is c a l l e d " C r i m i n a l D e f a u l t " and
which is set o u t a t 18 U.S.C. S 3615, I may be f i n e d n o t more
t h a n t w i c e the amount of t h e unpaid b a l a n c e of the f i n e o r
$100,000, whichever is g r e a t e r , imprisoned f o r n o t more t h a n
one y e a r , o r b o t h .
                           Attachment B
                            RESTITUTION
             - 18 U.S.C.
            (See             §§ 3663, 3664 and 1565)


      1   I know that in addition to any incarceration,
supervised release, probation, fine and other penalties which
may be imgosed by the court, I also may be required to make
restitution to any victim(s1 of the offense(s1 which I admit I
committed, to compensate the victim(s1 for any losses they may
have sustained as a result of my conduct. I know that in
determining whether to require me to pay restitution, and in
determining the amount of any restitution, the court will
consider my financial needs and resources and those of my
dependents. I understand that in any dispute as to these
financial needs and resources, the burden of demonstrating
these needs and resources will be upon me.
     2.  I understand that if I fail to comply with a court
Order reqbiring me to make restitution, the court may, if
appropriate, revoke my probation, modify any terms or condi-
tions in effect while I am on supervised release, or hold me in
contempt and punish me, pursuant to 18 U.S.C. S 3583(e).
     3. I understand that an order of restitution may be
enforced by the government in the manner provided for the
collection of fines and penalties under 18 U.S.C.  S 3565 (see
Attachment A), or in the same manner as a judgment in a civil
action. I further understand that any victim named in the
restitution order may enforce the order in the same manner as
he/she would enforce a judgment in a.civil action.
                               qF            University Corporation for Atmospheric Research
                                             p.0 Box 3000. Boulder, CO 80301-3000 U.S.A.
                                             Tel: (303) 497-1000




                                                                                       A p r i l 24, 1990

               mmbw Imtnutbnl,
                  Unlvaralty 01 Ab8ka
                 UnlvrrPv of &law
   California IrnUtutr 01 Technohv
     Unlveraity 01 Calllwnh at Old8
                                              Mr.
     Univaraitv 01 Calllotnia at Cvlw
            Unlvrrdtv of Californb at
                               LO8 AOg*k8
                Udvarrltv of Chicago
            C O ~ . O stat.
                         0       un(v*rlnv
               unlvwmy 01 cokodn
                      C W I W Unlv818hv
                 Unlvulnv 01 Omver
                                              National Science Foundation
                       om.* Unlvardw
              F&!da SUU Unlvwdtv
                                              1800 G Street,N.W.,
     Gaorgu huthula ol TIClVloloOv
                     u v w d Un(vaniiv
                                              Washington, D.C. 20550
                  unrvenhv of MwaU
      UninrPv of UWob O l WbUW
                                Chamwign
                Iowa st** Univaniiv
                                              Dear M r .               :
            Johnr Hophha UnlvUdly
               u n i v r t r v 01 MM
           Mawchunna Inmthute ol                          This i s a f o l l o w up t o my l e t t e r t o you o f March 6, 1990
                                              concerning t h e suspected t h e f t by former UCAR employee Susan J.
                                T~hn0)OgV
                       k G U l UnlvarW
                   Unlradtv 01 Mhmi
               ~ n k . & y of MkMgm           Kassinger. We have completed our i n t e r n a l i n v e s t i g a t i o n and
                                              determined t h a t t h e t o t a l l o s s i s $68,370.94.          Enclosed i s a copy
             Unlvarlnv of M h r r w t a
                Unlwnlw 04 M l a ~ u d
          (Java1h8t#frchut# Gchool
   Vnivarritv ol N.bfa8ka It Unfoln           o f "Notes To The F i l e , " dated A p r i l 23, 1990, prepared by our
                                              i n t e r n a l auditor,                    which d e t a i l s t h e loss.
                 UnirmHy of N.v.da
     Now Marko hsUtuta of M i
                         ad TachnolDDv
     SUt. UnIvmilv Dl Now Yolk at

                 NOW Yak univanity
                                    Atbmv
                                                        We have submitted our c l a i m f o r t h e $68,370.94 t o our
      NOrUI Cllofha SUta UdVW8tlV
                Ohio Slat0 Unlvwaitv          insurance c a r r i e r . The insurance company w i l l have a l o c a l c l a i m
                                              service company review t h e c l a i m and a1 1 o f t h e supporting
              Unlnrdly of O k h h a a
             01-         Staa Unlvwoltv
        Pon~ytvnb        8Uta Unlvwshv
                  Rlncalon Unlvaf8hv          documentation and based on t h i s review determine how much o f t h e
                                              c l a i m they w i l l pay. We b e l i e v e t h a t t h e documentation we have
                      PUIW univorPv
           Unlvafallv of Rhoda I d a d

                                              gathered w i l l support the e n t i r e claim, but t h a t remains t o be
                           Rra Unlvanltv
                Salnl h u i 8 Unlvndtv
 Scrippa h8tltdan ol QE~m~grapkv
     at tho UnlvMc* ol Cditomia at
                                 8.n Di.go
                                              seen. We w i l l advise the Foundation as soon as we have reached a
                   Sunlord Unlvwlnv
               Taraa AhM U M r d t y
                                              settlement w i t h the insurance company.
                   Un1vwlfh Of Tarao

                                                          We have advised the FBI and the l o c a l pol i c e . The U.S.
                univnonv 01 Toronto
                UUh StaU UnlvIdtv
                     Unhrrrlfh of Utah
                 Unlvanny Of virgni.
         w u w m SUU Unlwnitv
                                              D i s t r i c t Attorney f o r t h e Denver area i s aware o f t h e matter and
            UntWNltv ol wa-
 Unlvrrrhy of Wloconlh at MedIson
                                              has f i l e d charges against Ms. Kassinger. A t t h e present time
Univrdty of WhcOMln at Milwaukea
          Woodo IWo Ocamopraphlc
                                              n e g o t i a t i o n s are s t i l l going on between Ms. Kassinger's attorney
                                 kmution      and t h e U.S. Attorney, so we do n o t know t h e f i n a l d i s p o s i t i o n o f
                                              t h e matter. As soon as we are advised by U.S. Attorney o f the
              Unlvalanv O l WpmblO
                           vah univareitv

                                              outcome, we w i l l advise t h e Foundation. However, i t i s our
                                              understanding t h a t the f i n a l d i s p o s i t i o n w i l l most 1 ik e l y include
                                              r e s t i t u t i o n and a g u i l t y plea t o a felony charge.




                                                            UCAR b an Equal Q ~ W R k y / A f f l f m e t ~ vAction
                                                                                                              e     Emphayor
A p r i l 24, 1990
Page 2




       I n t h e meantime, i f you have any questions, please c a l l me
at                  .




Enclosure
cc:
